ti
%

PROOF OF SERVICE

Case No.

In The Supreme Court of the United States of America

L.E. Pauli Coffey
Petitioner
vs.
State of South Carolina
Respondent

I, L.E. Pauli Coffey, do swear and affirm that on this date,
i-

* as required by Supreme Court Rule 29 I have served

the enclosed Motion for leave to proceed In Forma Pauperis and
Petition for Writ of Certiorari on each party to the above
proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them and with first class postage prepaid, or by delivery to
35

RECEIVED
MAR 2 4 2021

J
v)

a third party commercial carrier for delivery within three (3)
calendar days.

State of South Carolina
Attorney General Alan Wilson
1000 Assembly St #519
Columbia South Carolina
29201

I declare under penalty of perjury that the foregoing is true and
correct
Executed on

March 19, 2021

L.E. Pauli Coffey

36

